C'OCKLE

2311 Douglas Street CA : E-Mail Address:
Omaha, Nebraska 68102-1214 L e & a 1 B Ee efs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No.

TRUSTEES OF THE
THOMAS E. PROCTOR HEIRS TRUST,
Petitioners,

v.

KETA GAS & OIL COMPANY, ANADARKO E&P
ONSHORE, LLC, SWN PRODUCTION COMPANY,
INTERNATIONAL DEVELOPMENT CORPORATION,
AND TROUT RUN HUNTING & FISHING CLUB, INC.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 7143 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 17th day of February, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska &v
H RENEE J. GOSS 0. ( bes Lin : Ch ae

i ty Comm. Exp. September 5, 2023
Notary Public / Affiant 40637

 
